CERTIFICATE OF SERVICE
20-1137
CALIFORNIA PARENTS FOR THE EQUALIZATION OF EDUCATIONAL MATERIALS, ET AL.,
Petitioners,
v.
TOM TORLAKSON, IN HIS OFFICIAL CAPACITY AS STATE SUPERINTENDENT OF PUBLIC
INSTRUCTION AND DIRECTION OF EDUCATION FOR THE CALIFORNIA DEPARTMENT OF
EDUCATION, ET AL.,
Respondents

I, Alan Mygatt-Tauber, do hereby certify that on this eighteenth day of
March, 2021, I caused a copy and an electronic copy of the MOTION TO FILE AND
BRIEF OF SHREE SHAKTI MANDIR OF ATLANTA AND OTHER HINDU
TEMPLES, HINDU ORGANIZATIONS, AND TEACHERS AS AMICUS CURIAE
IN SUPPORT OF PETITIONER and the accompanying brief in the above entitled
case to be served by first class mail, postage prepaid, and by email on the following
parties:
CARTER G. PHILLIPS
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20005
cphillips@sidley.com

THOMAS H. PROUTY
California Department of Education
1430 N Street
Suite 5319
Sacramento, CA 95814
tprouty@cde.ca.gov

JASON SHERMAN
Johnson Schachter & Lewis APC
2180 Harvard St.
Suite 560
Sacramento, CA 95815
jason@jsl-law.com
I further certify that, with permission, I caused an electronic copy only to be
served on the following parties:

KATHERINE ANN ALBERTS
Leone & Alberts
2175 N. California Blvd.
Suite 900
Walnut Creek, CA 94596
albertsk@stubbsleone.com

JOHN GARLAND GHERINI
University of California
Office of the General Counsel
1111 Franklin Street
8th Floor
Oakland, CA 94607-5200
john.gherini@ucop.edu
/s/Alan Mygatt-Tauber
ALAN MYGATT-TAUBER
LAW OFFICE OF ALAN MYGATT-TAUBER
10089 Ashley Circle, NW
Silverdale, WA 98383
(202) 236-9734

